SS
I

OCKLE

2311 Douglas Street Ne . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B zee contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

DIANE GRUBER and MARK RUNNELS,
Petitioners,
v.
OREGON STATE BAR, a public corporation,

CHRISTINE CONSTANTINO, President of the

Oregon State Bar, and HELEN HIERSCHBIEL,

Chief Executive Officer of the Oregon State Bar,

Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 5150 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of April, 2021.
1 am duly authorized under the laws of the State of ‘Nebraska to administer oaths.

j 4 GENERAL MOTARY-State of Nebraska Ws Chk,
A RENEE J. GOSS 9. ( heed rar 7
iehwee My Comm. Exp. September 5, 2023

Affiant 40909

     
    

 

Notary Public
